No. _______

In The

Supreme Court of the United States

WILLIE KIPYEGO BUTIA,
v.

Petitioner,

COMMONWEALTH OF VIRGINIA,
Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Virginia

APPENDIX

Jonathan P. Sheldon, Esq. (VSB # 66726)
Sheldon & Flood, PLC
10621 Jones Street, Suite 301-A
Fairfax, Virginia 22030
Tel. (703) 691-8410
Fax (703) 251-0757
Email: jsheldon@SFHdefense.com
Counsel of Record for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

APPENDIX:
Supreme Court of Virginia Order, filed
October 15, 2019................................................. App. 1
Court of Appeals of Virginia Opinion, filed
February 27, 2019 .............................................. App. 2

App. 1
VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond on
Tuesday the 15th day of October, 2019.
Record No. 19060
Court of Appeals No. 0906-18-4
Willie Kipyego Butia, Appellant,
against
Commonwealth of Virginia, Appellee.
From the Court of Appeals of Virginia
Upon review of the record in this case and
consideration of the argument submitted in support
of the granting of an appeal, the Court refuses the
petition for appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By: /s/ Deputy Clerk

App. 2
VIRGINIA:
In the Court of Appeals of Virginia on Wednesday
the 27th day of February, 2019.
Record No. 0906-18-4
Circuit Court No. FE-2016-1060
Willie Kipyego Butia, Appellant,
against
Commonwealth of Virginia, Appellee.
From the Circuit Court of Fairfax County
Per Curiam
This petition for appeal has been reviewed by a
judge of this Court, to whom it was referred
pursuant to Code § 17.1-407(C), and is denied for the
following reasons:
A jury convicted appellant of abduction and
acquitted him of rape. He asserts that the trial court
erred by denying his motion to strike because the
evidence failed to prove that he abducted the victim,
O.B., by “detaining” her within the meaning of Code
§ 18.2-47. Appellant emphasizes that O.B.’s
testimony was “not clear as to when and where she
was abducted” and argues that she was “not, in fact,
detained or deprived of her personal liberty.”
Appellant also contends that the evidence failed to
prove abduction because it did not establish that he
intended to deprive O.B. of her personal liberty.

App. 3
Rule 5A:18 provides, in pertinent part, that “[n]o
ruling of the trial court . . . will be considered as a
basis for reversal unless an objection was stated
with reasonable certainty at the time of the ruling,
except for good cause shown or to enable the Court of
Appeals to attain the ends of justice.” “The purpose
of this contemporaneous objection requirement is to
allow the trial court a fair opportunity to resolve the
issue at trial, thereby preventing unnecessary
appeals and retrials.” Creamer v. Commonwealth, 64
Va. App. 185, 195 (2015).
At the conclusion of the Commonwealth’s case,
appellant moved to strike the evidence. Defense
counsel stated, “At this time we would make a
motion to strike on both counts.” When the trial
court responded, “All right. Go ahead, ma’am,”
appellant announced, “We will submit on the
evidence that was submitted.” The trial court ruled
as follows: “All right. With the grounds stated on the
motion to strike, the [c]ourt will deny the general
motion at this time. I think it’s a matter [for] the fact
finder. Nothing specific has been articulated. The
Court will deny the motion to strike.”
Appellant presented evidence. At the conclusion
of all of the evidence, he “renewed” his motion to
strike without elaboration. The trial court denied the
motion, stating, “Without any specific issue to look
at with regard to the two charges before the [c]ourt,
there’s a divergence of testimony and divergence of
what actually happened, why — state Count I —
why, if and why there was a restraint of [O.B.] . . . . I
deny the motion to strike.”
Appellant’s assignment of error is limited to
whether the trial court erred by denying his motion
to strike, and we therefore limit our analysis to the

App. 4
issue as framed in his assignment of error. See Rule
5A:12(c)(1) (“Only assignments of error assigned in
the petition for appeal will be noticed by this
Court.”). A general sufficiency objection in a motion
to strike does not preserve for appeal a challenge to
whether a particular element of the offense was
proved. See Marshall v. Commonwealth, 26 Va. App.
627, 636 (1998). “[A]n ‘appellate court, in fairness to
the trial judge, should not . . . put a different twist
on a question that is at odds with the question
presented to the trial court.’” Johnson v.
Commonwealth, 58 Va. App. 625, 637 (2011)
(quoting Commonwealth v. Shifflett, 257 Va. 34, 44
(1999)). “Making one specific argument on an issue
does not preserve a separate legal point on the same
issue for review.” Id. (quoting Edwards v.
Commonwealth, 41 Va. App. 752, 760 (2003) (en
banc), aff’d by unpublished order, No. 040019 (Va.
Oct. 15, 2004)). Under Rule 5A:18, the “same
argument must have been raised, with specificity, at
trial before it can be considered on appeal.” Id.
(quoting Correll v. Commonwealth, 42 Va. App. 311,
324 (2004)).
Appellant’s general motion to strike the evidence
was not specific enough to preserve his arguments
on appeal. The trial court expressly stated that
appellant had stated “nothing specific” in support of
his motion to strike at the conclusion of the
Commonwealth’s evidence, and when appellant
“renewed” that motion, the trial court noted that it
had been given nothing “specific . . . to look at,” and
therefore, denied the motion based upon the
“divergence” in the testimony regarding whether
O.B. had been restrained. Thus, the trial court

App. 5
interpreted appellant’s argument as a credibility
issue.
Appellant does not assert on appeal that O.B.’s
testimony was not credible. He attacks the
sufficiency of the evidence supporting his abduction
conviction on grounds different than those raised at
trial, and therefore, has failed to preserve his
arguments. Rule 5A:18. “Although Rule 5A:18
contains exceptions for good cause or to meet the
ends of justice, appellant does not argue these
exceptions and we will not invoke them sua sponte.”
Williams v. Commonwealth, 57 Va. App. 341, 347
(2010). Accordingly, we decline to consider the first
assignment of error.
II. Appellant asserts that the trial court erred by
incorrectly instructing the jury in Instruction No. 7
that “the definition of detain is to restrain, and that
the victim was detained if she was restrained by the
defendant for a brief period of time.” He concedes
that he did not object to the instruction, but asks
that we consider his argument under the ends of
justice exception in Rule 5A:18.
“The purpose of th[e] contemporaneous objection
requirement [in Rule 5A:18] is to allow the trial
court a fair opportunity to resolve the issue at trial,
thereby preventing unnecessary appeals and
retrials.” Creamer, 64 Va. App. at 195. “The ‘ends of
justice’ exception to Rule 5A:18 is ‘narrow and is to
be used sparingly.’” Pearce v. Commonwealth, 53 Va.
App. 113, 123 (2008) (quoting Bazemore v.
Commonwealth, 42 Va. App. 203, 219 (2004) (en
banc)). “[F]or this Court to consider the merits of
appellant’s assignment of error, he must show that
either the conduct for which he was convicted is not
a criminal offense or that the record affirmatively

App. 6
establishes that an element of the offense did not
occur. Merely claiming that the Commonwealth
failed to prove an element of the offense will not
constitute a miscarriage of justice.” Le v.
Commonwealth, 65 Va. App. 66, 74 (2015).
On appeal, this Court’s “sole responsibility in
reviewing [jury instructions] is to see that the law
has been clearly stated and that the instructions
cover all issues which the evidence fairly raises.”
Molina v. Commonwealth, 272 Va. 666, 671 (2006)
(quoting Swisher v. Swisher, 223 Va. 499, 503
(1982)). Code § 18.2-47(A) provides that
[a]ny person who, by force, intimidation or
deception, and without legal justification or
excuse, seizes, takes, transports, detains or
secretes another person with the intent to
deprive such other person of his personal
liberty or to withhold or conceal him from
any person, authority or institution lawfully
entitled to his charge, shall be deemed guilty
of “abduction.”
Although the term “detain” is not defined by statute,
the Supreme Court has held that, “[f]or purposes of
Code § 18.2-47(A), a defendant ‘detains’ a victim by
having that victim ‘remain in a certain location, or
even in a certain position’ through the use of force,
intimidation, or deception.” Commonwealth v.
Herring, 288 Va. 59, 74 (2014) (quoting Burton v.
Commonwealth, 281 Va. 622, 628 (2011)). Thus, [f]or
purposes of Code § 18.2-47(A), it is possible to
‘detain[]’ a victim by having that victim remain
within a house.” Id. at 75.

App. 7
Here, the trial court instructed the jury as
follows regarding the evidence required to prove that
appellant abducted O.B.:
The defendant is charged with the crime of
abduction. The Commonwealth must prove
beyond a reasonable doubt each of the
following elements of that crime:
1. That the defendant by force or
intimidation, did seize, take, transport, or
detain [O.B.]; and
2. That the defendant did so with the intent
to deprive [O.B.] of her personal liberty; and
3. That the defendant acted without legal
justification or excuse.
If you find from the evidence that the
Commonwealth has proved beyond a
reasonable doubt each of the above elements
of the offense as charged, then you shall find
the defendant guilty . . . .
It also instructed the jury in Instruction Number 7
that the term “detain” meant “to hold, to keep in, or
to restrain.” Finally, it instructed the jury that the
Commonwealth “d[id] not need to prove that the
Defendant detained [O.B.] for the entire incident.
[O.B.] was detained if she was held, kept in, or
restrained by the Defendant for a brief period of
time.”
“When reviewing jury instructions on appeal, we
read the instructions together and consider them as

App. 8
a whole.” SuperValu, Inc. v. Johnson, 276 Va. 356,
366 (2008). Read together, Instruction Numbers 6
and 7 properly instructed the jury that appellant
was guilty of abduction if the evidence proved
beyond a reasonable doubt that he “detained” O.B.
by restraining her through force or intimidation with
the intent to deprive her of her personal liberty. See
Herring, 288 Va. at 74. Accordingly, because the two
instructions correctly stated the Commonwealth’s
burden of proof, the record does not justify
application of the ends of justice exception.
III. Appellant argues that the trial court erred by
denying his motion to set aside the verdict and for a
new trial with respect to his abduction conviction.
He asserts that the jury’s verdict was plainly wrong
because the evidence failed to prove that he intended
to deprive O.B. of her liberty. Instead, appellant
contends that he detained her to “further his sexual
advances.” He cites O.B.’s testimony that he “was
trying to get [her] to sleep with him” when he
“grabbed [her] from behind” and “sat down with
[her]” and “again wrapped his arms around [her].”
He also argues that he did not “detain” O.B. for
purposes of Code § 18.2-47 because he only
“momentar[ily]” deprived O.B. of her liberty when he
wrapped his arms around her. Appellant asserts that
the jury erroneously assumed, based upon
Instruction Number 7, that restraint “even for a
brief period of time[] satisfied the definition of
‘detain’ . . . and therefore could be a basis for
conviction.”
“When considering on appeal the sufficiency of
the evidence presented below, we ‘presume the
judgment of the trial court to be correct’ and reverse
only if the trial court’s decision is ‘plainly wrong or

App. 9
without evidence to support it.’” Kelly v.
Commonwealth, 41 Va. App. 250, 257 (2003) (en
banc) (quoting Davis v. Commonwealth, 39 Va. App.
96, 99 (2002)). As the Commonwealth was the
prevailing party below, we state the facts in the light
most favorable to it. Gerald v. Commonwealth, 295
Va. 469, 472-73 (2018). Therefore, we discard any of
appellant’s conflicting evidence, and regard as true
all credible evidence favorable to the Commonwealth
and all inferences that may reasonably be drawn
from that evidence. Id.
Appellant and O.B. were married on July 23,
2008. In 2016 they were experiencing marital
difficulties, and separated in early April 2016. At the
end of May 2016, however, the couple attempted to
reconcile, and O.B. moved back in with appellant.
During the week preceding Friday, May 27, 2016,
appellant and O.B. resumed marital relations. On
the evening of Thursday, May 26, 2016, appellant
and O.B. quarreled about a text message exchange
between him and his former wife, prompting
appellant to give O.B. his phone so that she could
“see how the conversation went.” O.B. looked
through his conversation history and became angry
when she found messages between appellant and
other women when O.B. was pregnant with their son
in September 2014. O.B. announced “there would be
no more reconciliation and [that she] was done with
him.” She told appellant that she was going to bed
and that she would sleep in the spare bedroom or
that he could. Appellant replied that they could sleep
in the same room, and O.B. agreed, “[a]s long as [he]
d[id]n’t touch [her].” O.B. testified:

App. 10
And so I went upstairs, I went to the
bathroom. When I came out, he was standing
at the sink where I normally wash my hands
and he was trying to talk to me. So I went
over to the other sink and he came over and
he grabbed me from behind and I told him to
just leave me alone, I wasn’t interested in
anything. And he grabbed me from behind
and I sat down on the floor. I was crying, I
was upset. I sat down on the floor, he sat
down with me and again wrapped his arms
around me and I stood up and I told him, “I
don’t want any of this, just leave me alone.”
And he was trying to get me to sleep with
him.
O.B. left the bathroom and lay down on their bed.
She testified that appellant lay down beside her, put
his arm around her, and made sexual advances
toward her. In response, she “got out of the bed and .
. . told him to just leave me alone.”
Appellant urged O.B. to come back to bed and
promised that he would not touch her. When she
relented, however, he put his arm around her again,
“grabbing [her] even tighter . . . .” He started
slapping her thigh and holding her “tight so [she]
couldn’t move very well . . . .” O.B. “screamed” and
began to cry. She “finally got off the bed onto the
floor” and walked over to check on her son, who had
been awakened by her screaming. O.B. then left the
master bedroom and locked herself in the spare
bedroom.
After a “few minutes,” she decided that she
“didn’t want to leave [her] son in there alone with
[appellant],” and returned to the master bedroom.

App. 11
She did not lie down in bed next to appellant,
however; instead, she sat in a chair next to the crib.
Appellant asked her, “What are you doing?” and she
told him that she was “just trying to go to sleep” and
to “leave [her] alone.”
Appellant climbed on top of her as she sat in the
chair and began to kiss her. When he attempted to
pull her out of the chair, she “grabbed on” to her
son’s crib, but appellant continued to pull her with
his arms around her waist. Because she was “moving
the crib,” O.B. released her grip and “started
screaming for help.” Appellant told her, “Who’s going
to help you? Nobody wants you here. Who are you
screaming for?” O.B. stated that appellant “pulled”
her out of the chair “by [her] arm,” and held her
down on the bed, “telling me what a stupid bitch I
was, and how nobody wanted me here.”1
O.B. eventually got out of bed, gathered her
possessions and her son, and left the house at 1:30
a.m. After reporting the incident to the police, O.B.
telephoned appellant and recorded the conversation.
Appellant admitted during the phone call that he
“pinn[ed] [her] down” and “restrain[ed]” her because
he did not want her to leave. He denied any
recollection of pulling her out of the chair; however,
he did admit, “You struggled . . . so I held you down .
. . you kept struggling . . . I held you down . . . you
screamed . . . and I let you go.” He said he “tried to
keep [her] [t]here” and that he “just wanted [her] to
stay.” Appellant noted that he was “holding her with
his arms and legs locked around her.” O.B. disputed
appellant’s recollection that he immediately released
Appellant and O.B. gave conflicting testimony about whether
they had sexual intercourse and whether appellant raped her,
but the jury acquitted appellant of rape.
1

App. 12
her when she screamed, stating that she screamed
“like five times.”
At trial, O.B. was asked to identify when
appellant was “physically holding [her] or
restraining [her],” and answered, “When I was
standing at the sink washing my hands, he was
holding onto me from the back and he did let go of
me as I sat down and then he did grab onto me again
when I was sitting down and I told him to let me go.”
She also stated, “A couple of times when we were
laying in bed and then he pulled me out of a chair
and he was holding onto me and forced me onto the
bed again.”
Appellant argues that the evidence failed to
prove that he abducted O.B. because he did not
intend to deprive her of her personal liberty; instead,
he contends that he detained her to “further his
sexual advances.” He cites O.B.’s testimony that he
“grabbed [her] from behind” in the bathroom and
“wrapped his arms around [her]” because “he was
trying to get [her] to sleep with him.” Relying on
Johnson v. Commonwealth, 221 Va. 872 (1981),
appellant asserts that the evidence proved that he
briefly detained O.B. because he wanted to have sex
with her, not because he intended to deprive her of
her personal liberty.
Johnson is distinguishable from the facts here in
two respects. First, the Supreme Court held that
Johnson restrained his victim only long enough to
further his sexual advances because he detained her
only “ten to fifteen seconds” while he tried to kiss her
and “rub” against her. Id. at 874. By contrast,
appellant pulled O.B. from a chair toward the bed as
she “struggled” with him and pinned her on the bed
as she continued to struggle. Second, unlike

App. 13
appellant, Johnson never stated that he restrained
the victim because he wanted to keep her inside the
apartment. See Code § 18.2-47(A) (requiring proof
that a defendant detain the victim with the intent to
deprive her of her personal liberty); Herring, 288 Va.
at 75 (“[I]t is possible to ‘detain’ a victim by having
the victim remain within a house.”).
“The question of [appellant’s] intent [had to] be
determined from the outward manifestation of his
actions leading to usual and natural results, under
the peculiar facts and circumstances disclosed. This
determination present[ed] a factual question which
l[ay] peculiarly within the province of the [fact
finder].” Ingram v. Commonwealth, 192 Va. 794,
801-02 (1951). Further, the Supreme Court of
Virginia has held that statutory abduction is
complete upon “the physical detention of a person,
with the intent to deprive [her] of [her] personal
liberty, by force.” Scott v. Commonwealth, 228 Va.
519, 526 (1984). Here, appellant admitted during his
phone call with O.B. that he restrained her and held
her down because he did not want her to leave.
He gave a different account at trial, testifying that
he restrained her because she woke him up, “hitting”
him in anger after finding evidence of his infidelity
on his phone. Appellant stated that he restrained
her until she agreed to stop hitting him. He admitted
that he followed her into the bathroom and “hugged”
her, but stated that she “rejected” his overtures and
left the house with their son. The inconsistencies in
appellant’s accounts entitled the jury to find
rationally that he lied at trial to conceal his guilt.
See Flanagan v. Commonwealth, 58 Va. App. 681,
702 (2011).

App. 14
Based on this record, a reasonable fact finder
could conclude that appellant “detained” O.B. by
force and that he did so with the intent to deprive
her of her personal liberty.2 Accordingly, the trial
court did not err by denying appellant’s motion to set
aside the verdict.
This order is final for purposes of appeal unless,
within fourteen days from the date of this order,
there are further proceedings pursuant to Code §
17.1-407(D) and Rule 5A:15(a) or 5A:15A(a), as
appropriate. If appellant files a demand for
consideration by a three-judge panel, pursuant to
those rules the demand shall include a statement
identifying how this order is in error.
The Commonwealth shall recover of the
appellant the costs in the trial court.
This Court’s records reflect that Hunter A.
Whitestone, Esquire, is counsel of record for
appellant in this matter.
A Copy,
Teste:
Cynthia L. McCoy, Clerk
By: /s/ Deputy Clerk

We need not apply the incidental detention doctrine
articulated in Brown v. Commonwealth, 230 Va. 310, 314
(1985), because it “only applies when a[n appellant] is convicted
of two or more crimes arising out of the same factual episode.”
Walker v. Commonwealth, 272 Va. 511, 516 (2006). Here,
appellant was convicted only of abduction.
2

